OFFICE OF THE
SECRETARY
FY 2012 Compliance with
Improper Payment
Requirements

FINAL REPORT NO. OIG-13-020-I
MARCH 15, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           The Inspector General
                                                           Washington, D.C. 20230



March 15, 20 I 3

MEMORANDUM TO THE DEPUTY SECRETARY

                            ~~·3~ 

FROM:                      Todd J. Zinser

SUBJECT:                   FY 2012 Compliance with Improper Payment Requirements
                           Final Report No. OIG-13-020-1

This memorandum provides our final report on FY 20 12 improper payment reporting. We
conducted this review to comply with the requirements of the Improper Payments Elimination
and Recovery Act of 20 I0 (IPERA) and Office of Management and Budget (OMB) Circular A­
123, Appendix C.

Our review focused on determining whether the Department's improper payment reporting in
Appendix E of its FY 20 12 Performance and Accountability Report complied with the Improper
Payments Information Act of 2002, as amended by IPERA. We also evaluated the accuracy and
completeness of the Department's reporting, as well as its performance in reducing and
recapturing improper payments.

Overall, we found that the Department met the applicable OMB criteria for compliance with
the Improper Payments Information Act of 2002, as amended by IPERA, for FY 20 12. However,
we determined that the Department could further improve improper payment implementation
strategy related to payments made without sufficient documentation. Our report contains one
recommendation to address this condition.

In accordance with Department Administrative Order 213-5, within 60 days of the date of this
memorandum, we request an action plan from the Office of the Secretary that responds to our
recommendation.

We are also issuing a copy of this report to the Senate Committee on Homeland Security and
Governmental Affairs; House Committee on Oversight and Government Reform; Comptroller
General of the United States; Director, OMB; and Controller, OMB.

We would like to thank the Department's staff and management for its cooperation during our
review. Please contact me at (202) 482-4661 if you would like to discuss the results of this
review.

Attachment
cc: 	   Ellen Herbst, Senior Adviser to the Deputy Secretary
        Lisa Casias, Deputy Chief Financial Officer and Director for Financial Management
        Gordon Alston, Director for Financial Reporting and Internal Controls
        Julie Tao, Director for Internal Controls
        MaryAnn Mausser, Audit Liaison
                                          Report In Brief                              MARCH 15, 2013




Background                                OFFICE OF THE SECRETARY
Improper payments are those made by
the federal government in the wrong       FY 2012 Compliance with Improper Payment Requirements
amount, to the wrong entity, or for
                                          OIG-13-020-I
the wrong reason. Federal agencies
reported estimated improper pay-
ments of almost $108 billion (more        WHAT WE FOUND
than 4 percent of outlays) for FY 2012.
The Improper Payments Infor-              To comply with IPIA and OMB Circular A-123, Appendix C, the
mation Act of 2002 (IPIA) requires        Department implemented procedures in FY 2012 to detect and prevent
federal agencies to (1) identify pro-     improper payments—conducting program risk assessments, reviewing a
grams susceptible to improper pay-        sample of FY 2012 disbursements, performing payment recapture audits, and
ments; (2) estimate improper pay-         conducting routine monitoring procedures. These assessments revealed no
ment amounts for such programs; and       programs or activities susceptible to significant risk of improper payments.
(3) report these estimates, along with    In addition, the Department’s review did not identify any significant
actions taken to reduce improper          improper payments among its approximately $14.8 billion in outlays. The
payments for programs with estimates      Department’s routine monitoring efforts in FY 2012 identified almost $1.2
that exceed $10 million in improper       million in improper payments, of which more than $1 million was confirmed
payments. The Improper Pay-               by the Department as recaptured. Based on these activities, we found the
ments Elimination and Recovery            Department to be in compliance. The Department has also implemented
Act of 2010 (IPERA) amended IPIA          corrective actions to address some of the issues identified in our March
by expanding on the previous require-     2012 report on improper payment practices and reporting. A summary of
ments for identifying, estimating, and    the Department’s relevant FY 2012 practices and results appear in the U.S.
reporting on programs and activities      Department of Commerce FY 2012 Performance and Accountability Report
which were vulnerable to significant      (PAR).
improper payments and broadening re-
covery requirements for overpayments.     While the Department met the applicable compliance requirements for FY
                                          2012, we determined that the Department could further improve its improper
Why We Did This Review
                                          payment implementation strategy related to payments made without
We initiated this engagement to re-       sufficient documentation. An OIG audit found that the Department paid
view the Department’s compliance          more than $300,000 in award fees without proper justification for one
with IPIA—as required by the Office       contract. This amount was considered an unsupported cost. Any such
of Management and Budget's (OMB’s)        payment made without sufficient documentation to determine propriety
government-wide implementation            represents an improper payment. However, this amount was not included in
guidance, Circular A-123, Manage-         the Department’s FY 2012 improper payment reporting in the PAR.
ment’s Responsibility for Internal Con-
trols, Appendix C, “Requirements for
Effective Measurement and Remedia-        WHAT WE RECOMMEND
tion of Improper Payments.” Specifi-
cally, we (1) assessed whether the        We recommend that the Department identify items that lack sufficient
Department complied with all report-      documentation from OIG audits and reviews of its programs and activities
ing requirements and (2) evaluated        —and report the unsupported costs related to those items as improper
the accuracy and completeness of its      payments in its annual PAR.
reporting as well as its performance in
reducing and recapturing improper
payments.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Objectives, Findings, and Recommendations .............................................................................................2
 
   Improper Payment Elimination Practices Are Compliant with IPIA, but Further 

   Improvement Is Needed .............................................................................................................................2
 
       Payments Lacking Sufficient Documentation Were Not Identified As 

       Improper Payments..................................................................................................................................4
 
Summary of Agency Response and OIG Comments................................................................................5
 
Appendix A: Objectives, Scope, and Methodology ...................................................................................6
 
Appendix B: Agency Response ......................................................................................................................7
 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934
 




FINAL REPORT NO. OIG-13-020-I
  DEPARTMENT OF COMMERCE
U.S.                                                                                  OFFICE OF INSPECTOR GENERAL


Introduction 

As required by the Office of Management and Budget’s (OMB’s) government-wide guidance on
detecting and preventing improper payments—Circular A-123, Management’s Responsibility for
Internal Controls, Appendix C, “Requirements for Effective Measurement and Remediation of
Improper Payments”—we initiated this review to determine whether the Department complied
with the Improper Payments Information Act of 2002 (IPIA), as amended by the Improper
Payments Elimination and Recovery Act of 2010 (IPERA).

Broadly defined, improper payments are those the federal government has made in the wrong
amount, to the wrong entity, or for the wrong reason.1 Federal agencies reported that
improper payments were estimated at almost $108 billion (approximately 4.4 percent of
outlays) for fiscal year (FY) 2012.

Congress enacted IPIA to encourage agency management to plan and take actions to reduce
such payments. It requires federal agencies to (1) identify programs that were susceptible to
improper payments, (2) estimate improper payment amounts for such programs, and (3) report
these estimates along with actions taken to reduce improper payments for programs with
estimates that exceed $10 million. IPERA amended IPIA2 by expanding on these previous
requirements3 and broadening recovery requirements for overpayments.

During FY 2012, the Department made approximately $14.8 billion in total outlays. As
mandated by IPIA, the Department implemented various internal controls intended to detect
and prevent significant improper payments. As a result, the Department identified no programs
and activities that may be susceptible to significant improper payments and reported $1,176,000
in improper payments which were identified through its ongoing improper payment monitoring
and minimization efforts. A summary of the Department’s FY 2012 improper payment practices
and results appears in appendix E of the U.S. Department of Commerce FY 2012 Performance and
Accountability Report (PAR).

                                                                




                                                            
1
  According to IPERA, (Public Law 111-204), an improper payment is any payment that should not have been made
or that was made in an incorrect amount (including overpayments and under payments) under statutory,
contractual, administrative, and other legally applicable requirements. It includes any payment (1) to an ineligible
recipient, (2) for an ineligible good or service, (3) that is duplicate, (4) for a good or service not received, and (5)
that does not account for credit for applicable discounts.
2
  Going forward, unless otherwise indicated, the term IPIA will denote IPIA, as amended by IPERA throughout this
report.
3
  IPIA defines significant improper payments as exceeding (1) 2.5 percent of program outlays and $10 million of all
program or activity payments made during the fiscal year or (2) $100 million. OMB further established additional
requirements related to federal agency management accountability, recovery auditing, compliance determination
through inspector general assessment, and maintaining sufficient internal controls related to improper payments.


FINAL REPORT NO. OIG-13-020-I                                                                                              1
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL


Objectives, Findings, and Recommendations
Our review focused on the Department’s efforts to calculate, disclose, reduce, and—when
appropriate—recapture improper payments accurately, as required by OMB’s Circular A-123.
Specifically, our objectives were to (1) assess whether the Department complied with all
reporting requirements and (2) evaluate the accuracy and completeness of its reporting as well
as its performance in reducing and recapturing improper payments.

We found that the Department met the three applicable OMB criteria for compliance with
IPIA, as described in table 1 (below). However, we believe that the Department should improve
its improper payment reporting by including payments lacking sufficient documentation.

                     Table I: Improper Payment Reporting Requirements
                                                                                               Department
    Requirement
                                                                                               Compliance
    Published the PAR and posted on agency website                                                  Yes
    Conducted program-specific risk assessments                                                     Yes
    Published improper payment estimates for all programs and activities identified as
                                                                                                     a
    susceptible to significant improper payments in the PAR
    Published programmatic corrective action plans for all programs and activities
                                                                                                     a
    susceptible to significant improper payments in the PAR
    Published and met annual reduction targets for each program assessed to be at risk and
    measured for all programs and activities susceptible to significant improper payments in         a
    the PAR
    Reported a gross improper payment rate of less than 10 percent for each program or
    activity for which a significant improper payment estimate was obtained and published in         a
    the PAR
    Reported information on its efforts to recapture improper payments in the PAR                   Yes

    Source: OIG analysis of Departmental data
    a
      The Department determined that it does not have any programs or activities susceptible to the risk of
    significant improper payments (i.e., exceeding either 2.5 percent of program payments and $10 million, or
    $100 million); therefore, this requirement is not applicable.

    Improper Payment Elimination Practices Are Compliant with IPIA, but Further
    Improvement Is Needed

    To meet the requirements of IPIA and OMB Circular A-123, Appendix C, the Department
    performed procedures in FY 2012 to detect and prevent improper payments. It:
 




FINAL REPORT NO. OIG-13-020-I                                                                                   2
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

              	 Conducted program risk assessments
              	 Evaluated a sample of FY 2012 disbursements4
              	 Performed payment recapture reviews for
                      o	 Closed and expired5 contracts and obligations and
                      o	 Closed and expired grants and other cooperative agreements
              	 Reviewed sustained disallowed costs for appropriateness
              	 Conducted routine monitoring procedures
              	 Disclosed required data in the PAR
       The results of these assessments revealed no programs or activities susceptible to risk of
       significant improper payments. In addition, the Department’s review of FY 2012
       disbursements and payment recapture audits did not identify any significant improper
       payments. The Department’s routine monitoring efforts identified almost $1.2 million in
       improper payments in FY 2012, of which more than $1 million was confirmed by the
       Department as recaptured. Based on these activities, we found the Department to be in
       compliance with IPIA.

       The Department has also implemented corrective actions to address some of the issues
       identified in our March 2012 report on improper payment practices and reporting:6
              	 Expand the scope of the Department’s review of grants and contracts to include
                 those for which the period of performance ended and last payment was made, but
                 for which the closeout process has not been completed
              	 Research items identified in payment recapture audits as lacking sufficient
                 documentation, and report amounts as improper payments in its annual PAR when
                 unable to discern propriety of payment

       The Department broadened the scope of their recapture work by (1) including grants in
       their recapture audits starting in FY 2011 and (2) expanding the contractor-performed
       recapture work in FY 2012 to include reviews of grants and contracts where the periods of
       performance had ended and last payments were made, but had not been fully closed out.
       Also, for items that contractors identified as lacking sufficient documentation during the
       prior year’s payment recapture review, the Department requested additional
       documentation and these items were re-examined during the current year’s review.


                                                            
4
  The review included disbursements made between October 2011 and June 2012 which were greater than $5,000.
Not included in the review for FY 2012 were intragovernmental transactions, payments to employees, travel
payments, bank/purchase cards, government bills of lading, grants, loans, and gifts and bequests.
5
  “Closed” refers to items for which the closeout process has been completed; “expired” refers to items for which
the period of performance has ended, and last payment was made, but for which the closeout process has not
been completed.
6
  U.S. Department of Commerce Office of Inspector General. March 15, 2012. FY 2011 Compliance with Improper
Payment Requirements, OIG-12-022-1. Washington, DC: DOC OIG.


FINAL REPORT NO. OIG-13-020-I                                                                                   3
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

       The FY 2012 payment recapture review identified several grants for which the grantees had
       not provided final technical or financial reports, which were due at the conclusion of the
       grants. The failure of those grantees to submit final reports even after the due date indicates
       those grantees’ failure to adhere to the terms of the award, which should be tracked by the
       Department so appropriate action can be taken. The Department’s Financial Assistance
       Standard Terms and Conditions, Section B.05, states:
              [The] failure to comply with any or all of the provisions of the award may have a negative
              impact on future funding by DOC and may be considered grounds for any or all of the
              following actions: establishment of an account receivable, withholding payments under any
              DOC awards to the recipient, changing the method of payment from advance to
              reimbursement only, or the imposition of other special award conditions, suspension of any
              active DOC awards, and termination of any active DOC awards.
       Because it is not unusual that final disbursement of grant funding occurs prior to the due
       date for these reports, no improper payments were identified.

       Payments Lacking Sufficient Documentation Were Not Identified As Improper Payments

       While the Department met the applicable compliance requirements for FY 2012, we
       determined that the Department could further improve its improper payment
       implementation strategy related to payments made without sufficient documentation. An
       OIG audit7 found that the Department paid approximately $302,964 in award fees without
       proper justification for one contract. This amount was considered an unsupported cost.8
       OMB Circular A-123, Appendix C, states “when an agency’s review is unable to discern
       whether a payment was proper as a result of insufficient or lack of documentation, this
       payment must also be considered an improper payment.” Any such payment made without
       sufficient documentation to determine propriety represents an improper payment.
       However, this amount was not included in the Department’s FY 2012 improper payment
       reporting in the PAR.

Recommendation

       We recommend that the Department identify items that lack sufficient documentation from
       OIG audits and reviews of its programs and activities—and report the unsupported costs
       related to those items as improper payments in its annual PAR.

                                                           




                                                            
7
  DOC OIG, May 18, 2012. NOAA’s Cost-Plus-Award-Fee and Award-Term Processes Need to Support Fees and
Extensions, OIG-12-027-A. Washington, DC: Department of Commerce OIG, 5.

8
  An “unsupported cost” is one questioned by an OIG because the OIG found that, at the time of the audit, such

cost was not supported by adequate documentation; see 5 U.S.C. App. 3 § 5(f)(2).



FINAL REPORT NO. OIG-13-020-I                                                                                     4
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
OIG received the Department’s comments on the draft report, which we include as appendix B
of this final report. The Department agrees with our report’s assertion that grantees who fail to
adhere to the terms of the award should be tracked by the Department. In addition, the
Department identified its plan to work with NOAA to determine whether unsupported costs
identified in our report should be reported as improper payments due to lack of supporting
documentation. We look forward to receiving the Department’s action plan that addresses our
report recommendations.

 




FINAL REPORT NO. OIG-13-020-I                                                                   5
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
Our objectives were to (1) assess whether the Department complied with all reporting
requirements and (2) evaluate the accuracy and completeness of its reporting as well as its
performance in reducing and recapturing improper payments. The scope of our review of the
Department’s compliance with IPIA included all Departmental processes and practices for
assessing and identifying programs and activities susceptible to improper payments, along with
procedures in place to detect and prevent improper payments, during FY 2012.

To meet our objectives, we obtained an understanding of internal controls and practices by:

    	 Interviewing the Department’s Office of Financial Management, as well as contractor
       representatives, to gain an understanding of risk assessment, disbursements, and
       improper payment processes

    	 Requesting, obtaining, and analyzing documents related to the risk assessment,
       disbursement, and improper payment recapture processes, including relevant policies
       and procedures and reports

    	 Reviewing “Appendix E: Improper Payments Information Act (IPIA), as Amended,
       Reporting Details,” of the PAR

We also reviewed the Department’s compliance with applicable provisions of IPIA and OMB
Circular A-123, Appendix C.

We conducted our field work from January 2013 to February 2013 in Washington, DC. We
performed this review under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, August 31, 2006. The review was conducted in
accordance with the Quality Standards for Inspection and Evaluation (January 2011) issued by the
Council of the Inspectors General on Integrity and Efficiency.




FINAL REPORT NO. OIG-13-020-I                                                                      6
  DEPARTMENT OF COMMERCE
U.S.                                                                                      OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response

                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                              Chief Financial Officer and
                                                               Assistant Secretary for Administration
                                                              Wo:.hington, D .C. :2a}30
              MAR 14 2013




           MEMORANDUM FOR                Ann C. Eilers
                                         Principal Assistant Inspecto r General
                                           for Oftice of Audit and Evaluation

           FROM:                   =lt~Lisa Casias     J\ r-7           --'
                                         Deputy ChiJFt;,a~ and
                                          Director for Financial Management

           SUBJECT:                      Comments on the Draft Report Entitled, "Office ofthe Secret01y FY
                                         2012 Compliance with improper Payment Requirements"


           This memorandum responds to the draft report from the Office of Inspector General (OIG), entitled
           "Office of the Secretary FY 2012 Compliance with Improper Payment Requirements" (i.e., the
           report"), issued on March 8, 2013. I am pleased the draft report states the Department met the three
           applicable Office of Management and Budget criteria fo r compliance with the Improper Payments
           Tnfom1ation Act of2002, as amended by the Improper Payments Elimination and Recovery Act of
           2010.

           Regarding the page 4 discussion of the grants identified during the FY 20 12 payment recapture audit
           for which the grantees had not provided final technical or financial reports, the Department's Office
           of Acquisition Management (OAM) agrees that grantees' failure to adhere to the terms of the award
           should be tracked by OAM, by having the bureaus identify grants that lack sufficient documentation
           from the grantees' and report these items lacking sufficient documentation to OAM .

           Regarding the page 4 discussion of the $302,964 in award fees for one contract that an 010 audit
           found was paid by the National Oceanic and Atmospheric Administration (NOAA) without proper
           justification and was considered an unsupported cost, my oflice wi ll work further with NOAA to
           review the justification and determine whether the $302,964 should be classified as improper
           payment(s) due to Jack of supporting docwnentation.

           1bank you for the opportunity to provide comments. If you have any questions or comments, please
           feel free to call me at (202) 482-1207.




FINAL REPORT NO. OIG-13-020-I                                                                                      7
